                  National Science Foundation • Office of Inspector General
                  4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230


MEMORANDUM

DATE:                 September 30, 2013

TO:                   Mary S. Santonastasso, Director
                      Division of Institution and Award Support

                      Karen Tiplady, Director
                      Division of Grants and Agreements


FROM:                 Dr. Brett M. Baker
                      Assistant Inspector General for Audit


SUBJECT:              Audit of EarthScope San Andreas Fault Observatory at Depth
                      (SAFOD) Expenditures Report No. 13-1-005


Attached please find the final report for audit of EarthScope San Andreas Fault
Observatory at Depth (SAFOD) expenditures for the period September 1, 2003 to March
31, 2009. The objectives of this audit were to determine if costs claimed were
reasonable, allowable, allocable, and in accordance with the cooperative support
agreement terms and conditions, and the OMB cost principles. We also reviewed the
expenditures for possible fraud, waste, or abuse.

Our audit questions $339,277 of the costs claimed by Stanford University (Stanford) to
NSF because Stanford did not comply with Federal and NSF award requirements.
Specifically, we found $290,000 was improperly used to replace a subcontractor’s
uninsured lost equipment; $43,024 was spent in excess of the subaward agreement ceiling
price; and $6,253 was spent on unallowable costs, such as sales taxes, promotional items,
and alcohol. We have included Stanford’s response to the draft report as an appendix.

To comply with Office of Management and Budget Circular A-50, Audit Followup,
please coordinate with our office during the six month resolution period to develop a
mutually agreeable resolution of the audit findings.
If you have any questions, please contact Marie Maguire, Director of Performance Audits, at
(703) 292-5009.

Attachment

cc:    Alex Wynnyk, Branch Chief, CAAR
       G.P. Peterson
       Michael Van Woert, NSB
Audit of EarthScope San Andreas Fault Observatory
          at Depth (SAFOD) Expenditures

          National Science Foundation Award
  For the Period September 1, 2003 to March 31, 2009



              National Science Foundation
              Office of Inspector General

                   September 30, 2013
                     OIG 13-1-005




                                              TM#12-P-1-010
Table of Contents
Introduction                                         1

Audit Results                                        1

Recommendation                                       4

Summary of Awardee Response and OIG Comments         4

Appendices

   Appendix A: Awardee Response                      7

   Appendix B: Objectives, Scope, and Methodology   13
Introduction

The National Science Foundation (NSF) is an independent federal agency whose mission is “to
promote the progress of science; to advance the national health, prosperity, and welfare; to
secure the national defense.” To support this mission, NSF funds research and education across
all fields of science and engineering, primarily through grants and cooperative agreements to
more than 2,000 colleges, universities, and other institutions throughout the United States.

In 2012, we completed an audit 1 of NSF’s management and oversight of contingencies in the
construction portion of the EarthScope project, which consisted of four cooperative agreements,
including one to Stanford University for the San Andreas Fault Observatory at Depth (SAFOD)
project. SAFOD was to directly monitor a creeping and seismically active fault zone at depth, to
sample fault zone materials (rock and fluids), and to measure a wide variety of fault-zone
properties.

During our audit of EarthScope, we found that SAFOD’s contingency expenses increased from
the initial estimate of $1.5 million to over $4.9 million and that Stanford did not separately
identify these contingency expenditures for SAFOD in its accounting system. Also during that
audit, we performed a cursory review of all SAFOD expenditures and identified expenditures
claimed on the EarthScope SAFOD award number 0323938 that appeared to be questionable.
Therefore, we decided to audit SAFOD’s expenditures to determine if costs claimed were
reasonable, allowable, allocable, and in accordance with the cooperative support agreement
terms and conditions and the Office of Management and Budget (OMB) cost principles.


Audit Results – $339,277 in Questioned Costs Because Stanford Did Not
Comply with Federal and NSF Award Requirements or Its Internal Policies

Stanford’s expenditures for the SAFOD project totaled nearly $24.6 million, of which 90 percent was
subawarded to eight subawardees. In turn, one subawardee contracted portions of its work to several
subcontractors. Due to the many levels of subcontracting used, the details of both the work completed
and the corresponding expenditures were not readily visible to us. We selected a sample of $16.3 million
of transactions for review; however, because of the significant amount of subawarded work, we were
able to review only $753,541 of SAFOD expenditures.

Of the $753,541 reviewed, we identified $333,024 of payments to a subawardee and $6,253 of other
direct costs as questioned costs because Stanford did not comply with Federal and NSF award
requirements or with its own internal policies. We found that Stanford officials did not enforce
provisions in the primary subaward agreement and were unaware that they claimed costs that were not
allowable. Specifically, $290,000 was improperly used to replace a subcontractor’s uninsured lost
equipment and another $43,024 was spent in excess of the subaward agreement ceiling price. Of the

1
 Audit of NSF’s Management of Contingency in the EarthScope Awards, Report No. 12-2-010, dated September 28,
2012.

                                                     1
remaining $420,517 reviewed, we found that Stanford spent $6,253 on unallowable costs, such as sales
taxes, promotional items, and alcohol. We recommend that NSF require Stanford to repay the $339,277
in questioned costs.


Finding 1: $290,000 in Questioned Costs for Uninsured Drilling Equipment

Stanford had a subaward with ThermaSource, Inc. (ThermaSource) to serve as the prime
contractor for all drilling services and drilling-related activities, which were critical components
of the project. To address risk, the subaward contained an insurance clause which required
ThermaSource to “obtain and maintain comprehensive liability insurance or self-insurance
sufficient to cover its responsibilities under this project.”

Drilling activities started in June 2004, and in September 2007, a ThermaSource subcontractor
lost and abandoned an uninsured logging string down a SAFOD drill hole in an attempt to obtain
a second set of core samples. We found that Stanford improperly expended $290,000 of NSF
award funds between January and March 2008 to reimburse the subcontractor for this logging
string.

We questioned this expenditure because Stanford officials did not enforce the insurance clause in
the subaward agreement with ThermaSource when presented with the request to cover the cost of
the lost drilling string. Instead, Stanford used NSF funds to replace the lost string. In their
response to the draft report, Stanford officials told us that there was an understanding among the
parties managing and performing the drilling that drilling into the San Andreas Fault was an
uninsurable activity and that SAFOD would cover the loss of equipment should it occur. No such
agreement is reflected in the terms of the subaward, which does not exempt any activities from
the insurance clause. Stanford officials also indicated that ThermaSource could not obtain
insurance on the logging string necessary to perform the drilling activities because the drilling
activities were high-risk, but did not provide evidence to support that fact. Even if insurance
could not be purchased, the insurance clause requires ThermaSource to self-insure. Stanford
indicated that it did not pursue ThermaSource under the self-insurance provision of the clause
because it was impossible for ThermaSource to obtain insurance. This statement reflects a lack
of understanding of what self-insurance requires.

We questioned the $290,000 based on OMB Circular A-21 2, Attachment J, Section 25, which
states that insurance required by a sponsored agreement is an allowable cost, and losses which
could have been covered by permissible insurance are unallowable. As noted above, Stanford
officials were unable to provide any evidence to support that obtaining insurance as the
agreement required, was not possible due to the risk involved. By using award funds to cover
this expense, there was less funding available for work remaining on the project.

It is noteworthy that an NSF panel conducting a November 2007 EarthScope Facility
Management Review was made aware that the lost logging string was not insured and in its
report stated “…it is the Panel’s opinion that the approximately $390K cost of the lost tool

2
    Title 2 of the Code of Federal Regulations (CFR) Part 220 replaced OMB Circular A-21.

                                                          2
should not be passed on to the project.” The panel consisted of five outside experts and the NSF
Program Director responsible for the EarthScope project, and was charged with assessing the
progress of the project and updates to the cost. The panel’s report concluded that the risk
management processes regarding possible tool failure and loss were not fully utilized. In their
response to the draft report, Stanford officials indicated that no one at Stanford recalls seeing or
discussing this recommendation by NSF. They stated that had the University been aware of the
recommendation, it could have pursued ThermaSource to fund the replacement equipment for
the lost logging string. We agree, and note that Stanford’s acknowledgment of its ability to have
ThermaSource bear the cost of replacing the logging string reinforces our basis for questioning
the cost of that string.


Finding 2: $43,024 in Questioned Costs for Overpayment to Subawardee

We found that Stanford officials used NSF funds to pay ThermaSource, a subawardee, $43,024
in excess of the total ceiling amount of the subaward agreement. We questioned this $43,024
overpayment because it was not in compliance with the terms of the subaward agreement or with
Stanford’s internal policy requirements.

The subaward agreement between Stanford and this subawardee stated that the agreement
amount was not to exceed                 ; however, Stanford paid ThermaSource a total of
$              Additionally, Stanford’s Research Policy Handbook, in place during the award,
required that the Principal Investigator ensure that costs “were incurred within the overall cost
limitations.”

This overpayment occurred because Stanford’s Accounts Payable department did not associate
related pre-award planning and water rights expenditures directly with the ThermaSource
subaward in the new accounting system. When Stanford converted to a new accounting system
in September 2003, this department, through an error, did not include the August 2003 pre-award
expenditures in the ThermaSource account, thereby, reducing the total expenditures on the
subaward. At the end of the award, Stanford’s accounting records indicated a remaining balance
for the ThermaSource subaward of $20,522. However, this balance did not include the $63,546
of preaward costs, resulting in a net overpayment to ThermaSource of $43,024.


Finding 3: $6,253 in Questioned Costs for Unallowable Expenditures
Including Sales Taxes and Promotional Materials

We found that Stanford officials charged $6,253 in unallowable costs to the SAFOD award for
sales taxes on two separate purchases; promotional materials (t-shirts); alcohol and related sales
taxes; a meal that occurred after travel ended; and facilities and administrative (F&A) 3 costs of


3
   2 CFR 220 states that “facilities and administrative (F&A) costs… means costs that are incurred for common or
joint objectives and, therefore, cannot be identified readily and specifically with a particular sponsored project, an
instructional activity, or any other institutional activity.”


                                                           3
    percent associated with these expenditures. 4 The following unallowable costs were charged
to the NSF award:

      •    $      of sales taxes
      •    $      for promotional needs
      •    $ 168 of alcohol and related sales taxes
      •    $ 63 for a meal that occurred after travel ended
      •    $      for F&A costs associated with promotional needs, alcohol, and a meal
           $6,253 total unallowable costs

We questioned these unallowable costs because they were not in compliance with OMB cost
principles and Stanford’s internal requirements. Specifically, OMB Circular A-21 Attachment J
contains the relevant cost principles. Section 49 states that, “Taxes… are allowable, except for
taxes from which exemptions are available to the institution directly or which are available to the
institution based on an exemption afforded the Federal Government.”

Section 1.f. states, “Unallowable advertising and public relations costs include the following….
(3) Costs of promotional items and memorabilia.” Finally, section 3 states that, “Costs of
alcoholic beverages are unallowable.” Stanford’s Principal Investigator Responsibilities at
Stanford University policy states that costs “must be allowable as defined by Circular A-21.”

In addition, the Stanford University Cardinal Curriculum cost policy states that, “Expenses
unallowable for federal reimbursement include… Alcoholic beverages.” Furthermore,
Stanford’s Administrative Guide Memo 36.7 Travel Expenses states that if the traveler remains at
the business destination for nonbusiness reasons, reimbursement of meals and lodging is not
allowed. Due to oversight, Stanford officials did not comply with either the relevant cost
principles or their policies when they paid for these unallowable items using NSF funds.


Recommendation

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
request Stanford University to repay NSF the $339,277 of questioned costs.


Summary of Awardee Response and OIG Comments

Stanford disagreed with findings 1 and 2 and partially agreed with finding 3. We made changes
where appropriate in the body of the report to include items from Stanford’s comments.

For finding 1, Stanford states that the SAFOD project involved drilling the first-ever well into
the San Andreas Fault located in one of the world’s most geologically active areas and that there
was an understanding among the parties that drilling into the Fault was an uninsurable activity
and that SAFOD would cover the cost of lost equipment should it occur. We did not find any

4
    F&A costs were not assessed on the   of questioned sales tax charged on capital expenditures.

                                                     4
exemption for such activities in the insurance clause and maintain our position that any
associated risks with drilling were the responsibility of ThermaSource. Stanford officials did not
enforce the self-insurance clause in the subaward agreement, and were unable to provide any
documentation or other evidence to support its assertion that insurance could not be obtained.
Stanford’s response states that an official from Schlumberger, ThermaSource’s subcontractor,
confirmed in July 2013 that the logging activity was not insurable. However, this documentation,
which we received after Stanford provided its formal response, was not directly related to the
SAFOD project. We further note that, in addition to the insurance clause, the subaward contains
an indemnification clause providing that Stanford will be held harmless from liability, damage,
loss, or expense.

Stanford also states in its response that NSF approved additional funding on November 20, 2007
and that these funds were used to fund additional drilling and the lost equipment. However, the
funding provided in November 2007 was based on a request for $300,000 dated August 16,
2007, before the drilling string was lost during the second week of September. The August 2007
funding request was for coring activities cost approximately $50,000 per day. NSF and the
EarthScope Management Team conducted an on-site review on September 7, 2007, and agreed
to increase the amount awarded to $445,000.

Finally, as stated in our report, the November 2007 EarthScope Facility Management Review
recommended that NSF not pay for the cost of the lost equipment. In its response to our draft
audit report, Stanford states that had Stanford been aware of the recommendation in this report at
the time, “Stanford could have pursued ThermaSource to fund the replacement equipment for the
lost logging string.” This last statement undermines Stanford’s other points and demonstrates
that Stanford chose to charge the government for the lost drilling string instead of requiring
ThermaSource to bear that cost.

For finding 2, Stanford replied that the $43,024 of questioned costs represent allowable and
necessary expenditures that directly benefitted the SAFOD project. We are questioning these
costs because Stanford did not properly manage its subaward agreement and incurred costs in
excess of the ceiling amount of this subaward agreement. We are not questioning the
allowability or necessity of these costs in regard to the definition of allowability per the cost
principles.

Finally, for finding 3, of the $7,160 of questioned costs in our draft report, Stanford concurs with
questioning $6,253 and stated that it will reimburse this amount to NSF. Stanford does not
concur with questioning $907 of direct costs and related F&A for reprints and publications. We
reconsidered our position after receiving Stanford’s response and have excluded these reprint and
publications costs from the audit finding and adjusted the amount of questioned costs
accordingly. We therefore are not including Exhibits 1 and 2 of Stanford’s response in our audit
report.

We have included Stanford’s response to this report, without the exhibits, as Appendix A.




                                                  5
OIG Contact and Staff Acknowledgements

Marie Maguire – Director of Performance Audits
(703) 292-5009 or mmaguire@nsf.gov

In addition to Ms. Maguire, Lisa Hansen and Ken Lish made key contributions to this report.




                                               6
Appendix A: Awardee Response




                               7
8
9
..,_.,~owl•n~revlous
   3) of




                       10
11
12
Appendix B: Objectives, Scope, and Methodology

The objectives of this audit were to determine if costs claimed were reasonable, allowable,
allocable, and in accordance with the cooperative support agreement terms and conditions and
the OMB cost principles. We also reviewed the expenditures for possible fraud, waste, or abuse.

To accomplish our objectives, we examined the EarthScope San Andreas Fault Observatory at
Depth (SAFOD) award number 0323938. The award term was from September 1, 2003 through
March 31, 2009 and was financially closed on September 30, 2009. At our request, Stanford
officials provided detailed transaction data for costs charged to this award. This data consisted
of more than 2,800 transactions totaling approximately $24.6 million, of which 90 percent was
subawarded to several entities. One subawardee in turn contracted portions of its work to others.
Due to the many levels of subcontracting used, the details of both the work completed and the
corresponding expenditures were not readily visible to us.

We originally selected a sample of 176 transactions totaling almost $16.3 million to test.
However, we found that $15.8 million of this sample related to subaward transactions and that
Stanford’s documentation related to these transactions did not contain enough information for us
to conclude on the appropriateness of these costs. For example, many of the invoices from
Stanford’s largest subawardee (ThermaSource) contained charges from several subcontractors
and we did not obtain detailed cost information from them. From our sample, we were able to
review only 115 transactions totaling $420,517. These transactions were selected based on
auditor judgment and the audit results cannot be projected to the total universe of transactions for
the SAFOD award. During our audit of NSF’s oversight of the EarthScope project 5, we became
aware of the lost logging string and gathered preliminary information surrounding its
circumstances. As part of this audit of SAFOD, we then performed a more comprehensive
review of the transactions used to pay for the lost logging string as well as a review of the
subawardee’s award agreement, correspondence, and aggregate subaward expenditures. From
this review, we were able to identify an additional $333,024 of questioned costs. Therefore,
based on our sample of transactions totaling $420,517 and our review of $333,024 in transactions
relating to issues identified in the EarthScope audit, we were able to review a total of $753,541
of SAFOD expenditures. For the questioned costs we identified, we also determined if there were
any corresponding F&A costs that were unallowable.

Our work required reliance on computer-processed data obtained from Stanford and NSF. We
obtained NSF data by directly accessing NSF’s Federal Financial Report (FFR) system. We
assessed the reliability of the data provided by Stanford by comparing costs charged to the NSF
award account within Stanford’s accounting record to the federal share of expenditures, as
reflected in Stanford’s final FFR submitted to NSF at the closure of the award. Based on our
testing, we found Stanford’s computer-processed data sufficiently reliable for the purposes of
this audit. We did not review or test whether the data contained in, or controls over, NSF’s FFR
system were accurate or reliable.


5
 Audit of NSF’s Management of Contingency in the EarthScope Awards, Report No. 12-2-010, dated September 28,
2012.

                                                     13
In assessing the allowability of costs reported to NSF by Stanford, we also gained an
understanding of the internal controls structure applicable to the scope of this audit through
interviews with Stanford officials, review of policies and procedures. We determined Stanford’s
compliance with its policies and procedures, as well as the following:

   •   Office of Management and Budget Circular A-21, Cost Principles for Educational
       Institutions (2 CFR, Part 220)
   •   Office of Management and Budget Circular A-110, Uniform Administrative
       Requirements for Grants and Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-profit Organizations (2 CFR, Part 215)
   •   National Science Foundation Proposal and Award Policies and Procedures Guide, Part
       II: Award & Administration Guide
   •   Award-specific terms and conditions

We identified instances of noncompliance resulting in questioned costs that are discussed in the
relevant sections of this report. We did not identify any instances of fraud, illegal actions, or
abuse.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We held an exit conference with Stanford officials on June 14, 2013.




                                                14
